Appendix Index
Appendix A - United States v. Johnson, 833 F. App’x 665 (9th Cir. 2020)

1a-4a

Appendix B - Johnson v. United States, 140 S. Ct. 556 (2019)

5a

Appendix C - United States v. Johnson, No. 18-10016, Order (June 25, 2019) 6a
Appendix D - United States v. Johnson, 920 F.3d 628 (9th Cir.),
cert. granted, judgment vacated, 140 S. Ct. 556 (2019)

7a-16a

United States v. Johnson, 833 Fed.Appx. 665 (2020)

Appendix A
833 Fed.Appx. 665
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1
generally governing citation of judicial
decisions issued on or after Jan. 1, 2007.
See also U.S.Ct. of App. 9th Cir. Rule 36-3.
United States Court of Appeals, Ninth Circuit.

West Headnotes (3)
[1]

Arraignment and plea

Plain error by omitting from indictment element
that defendant knew of status as convicted
felon when he was in possession of firearm
did not seriously affect fairness, integrity, or
public reputation of judicial proceedings and,
therefore, entitled defendant to no relief; signed
state court plea agreement contained defendant's
initials next to statement that he would not be
able to possess a firearm as a convicted felon,
and defendant knew he belonged to the relevant
category of persons barred from possessing a

UNITED STATES of America, Plaintiff-Appellee,
v.
Christopher JOHNSON, Defendant-Appellant.
No. 18-10016
|
FILED October 28, 2020
Synopsis
Background: Defendant was convicted after pleading guilty
in the United States District Court for the District of Nevada,
No. 2:17-cr-00057-JCM-CWH-1, James C. Mahan, J., to
being a felon in possession of a firearm, and defendant's
base offense level under Sentencing Guidelines was enhanced
based on prior California conviction for assault by nonfirearm deadly weapon, a wobbler offense that could be
punished as a felony or a misdemeanor. Defendant appealed.
The United States Court of Appeals for the Ninth Circuit,

Criminal Law

firearm.
(2).

18 U.S.C.A. §§ 922(g)(1),

4 Cases that cite this headnote
[2]

Criminal Law
Ascertainment by court;
advising and informing accused
Criminal Law

Arraignment and plea

Plain error by district court in failing to advise
defendant during plea colloquy that state was
required to prove defendant's knowledge of
status as felon at time of possession of firearm
was not shown to affect fairness, integrity, or
public reputation of judicial proceedings and

Bennett, Circuit Judge,
920 F.3d 628, affirmed. Certiorari
was granted. The United States Supreme Court, 140 S.Ct. 556,
205 L.Ed.2d 353, vacated and remanded.

entitled defendant to no relief.
922(g)(1),

Holdings: On remand, the Court of Appeals held that:
[1] plain error in indictment omitting knowledge element
entitled defendant to no relief, and
[2] plain error during plea colloquy entitled defendant to no
relief.
Affirmed.
Procedural Posture(s): Appellate Review; Sentencing or
Penalty Phase Motion or Objection.

924(a)

18 U.S.C.A. §§

924(a)(2).

4 Cases that cite this headnote
[3]

Criminal Law

Reply briefs

Claim of structural error during plea colloquy by
failing to inform defendant of state's obligation
to prove knowledge of status as convicted felon
when defendant was in possession of firearm was
waived by raising it for first time in supplemental
opening brief.

18 U.S.C.A. §§ 922(g)(1),

924(a)(2).

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1a

1

United States v. Johnson, 833 Fed.Appx. 665 (2020)

Attorneys and Law Firms

2194. Johnson, not having the benefit of
raise this claim in the district court.

Adam McMeen Flake, Assistant U.S. Attorney, USLV Office of the U.S. Attorney, Las Vegas, NV, Elizabeth Olson
White, Esquire, Assistant U.S. Attorney, USRE - Office of the
US Attorney-Reno, Reno, NV, for Plaintiff - Appellee

Although Johnson correctly points out that his pre-

Amy B. Cleary, Assistant Federal Public Defender, Federal
Public Defender's Office Las Vegas, Las Vegas, NV, for
Defendant - Appellant
Michael Marks, Federal Defenders of San Diego, Inc., San
Diego, CA, for Amicus Curiae Ninth Circuit Federal Public
and Community Defenders
On Remand from the United States Supreme Court, D.C. No.
2:17-cr-00057-JCM-CWH-1
Before: M. SMITH, NGUYEN, and BENNETT, Circuit
Judges.

*666 MEMORANDUM *
*

This disposition is not appropriate for publication
and is not precedent except as provided by Ninth
Circuit Rule 36-3.

18

U.S.C. §§ 922(g)(1) and
924(a)(2). The court sentenced
him to 30 months’ imprisonment. Johnson challenged the
validity of the conviction, and this court affirmed. See
United States v. Johnson, 920 F.3d 628 (9th Cir. 2019).
The Supreme Court vacated our judgment and remanded for
Rehaif v. United States,
further consideration in light of
588 U.S. ––––, 139 S. Ct. 2191, 204 L.Ed.2d 594 (2019).
Johnson v. United States, ––– U.S. ––––, 140 S. Ct. 556, 205
L.Ed.2d 353 (2019) (mem.). Following the Court's remand,
we instructed the parties to submit supplemental briefs. We
again affirm Johnson's conviction.
Johnson argues that his conviction is invalid under Rehaif,
which clarified that an individual must know of his felon
status at the time he possessed a firearm in order to be
convicted of being a felon in possession,

Rehaif

Rehaif knowledge element,
indictment did not include the
this omission does not require that we vacate his conviction.
Alleged “defects in an indictment do not deprive a court of
its power to adjudicate a case.”
United States v. Cotton,
535 U.S. 625, 630, 122 S.Ct. 1781, 152 L.Ed.2d 860 (2002).
Untimely and unpreserved sufficiency of the indictment
United States v.
claims are reviewed for plain error. See
Velasco-Medina, 305 F.3d 839, 846 (9th Cir. 2002) abrogated
on other grounds by
Navarro-Lopez v. Gonzales, 503 F.3d
1063 (9th Cir. 2007). “Under that test, before an appellate
court can correct an error not raised at trial, there must be
(1) error, (2) that is plain, and (3) that affects substantial
rights.” Cotton, 535 U.S. at 631, 122 S.Ct. 1781 (citations,
quotations, and brackets omitted). “If all three conditions are
met, an appellate court may then exercise its discretion to
notice a forfeited error, but only if (4) the error seriously
affects the fairness, integrity, or public reputation of judicial
proceedings.”
Id. at 631–32, 122 S.Ct. 1781 (citations,
quotations, and brackets omitted).

On July 6, 2017, defendant-appellant Christopher Johnson
pled guilty to a single count indictment charging him with
being a felon in possession of a firearm, in violation of

Rehaif, did not

139 S. Ct. at

[1] The government concedes, and we agree, that the
omission of the knowledge of felon status element from the
indictment satisfies the first two prongs of plain error analysis
—under

Rehaif, it is clear that this omission was an error

and the error is plain. See
United States v. Benamor, 937
F.3d 1182, 1188 (9th Cir. 2019) (holding that failure to instruct
the jury to find that the defendant knew he was a felon was an
Rehaif). To show that his substantial
obvious error under
rights were affected in the context of a plea, Johnson must
“show[ ] a reasonable probability that, but for the error,
he would not have entered the plea.”
United States v.
Espinoza, 816 F. App'x 82, 84 (9th Cir. 2020) (reciting the
standard for the third prong of plain error in the plea context
post- Rehaif) (quoting *667 United States v. Bain, 925
F.3d 1172, 1178 (9th Cir. 2019)). Johnson contends that the
omission of the mens rea status element “prevented [him]
from investigating and presenting a complete defense to the
charge,” and that there is “a reasonable probability he would
not have entered a guilty plea” if he knew the government had
to prove the missing mens rea element.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2a

2

United States v. Johnson, 833 Fed.Appx. 665 (2020)

Assuming without deciding that Johnson's substantial rights
were affected, Johnson's claim still fails because he has not
shown that the error “seriously affected the fairness, integrity,
or public reputation of judicial proceedings.”
Benamor,
937 F.3d at 1188. The Supreme Court has held that where
evidence of the omitted element is overwhelming, prong four
of plain error is not met. See
Cotton, 535 U.S. at 632–
33, 122 S.Ct. 1781. Here, the evidence is overwhelming that
Johnson knew his status, even if it was omitted from the
indictment.
First, Johnson submitted to this court his signed state court
plea agreement that shows that he initialed next to the
statement “As a convicted felon, I will not be able to own
or possess any firearm,” (emphasis added). Second, the same
plea agreement also has his initials next to: “I understand
that if I violate any of my probation terms, I could be
sentenced to the maximum custody term possible under
these charges....” The plea agreement lists the charge as a
violation of “California Penal Code section 245 (a)(1)” and
lists the maximum possible custody term as “4 years.” These
facts clearly demonstrate that Johnson “knew he belonged
to the relevant category of persons barred from possessing a
firearm.” Rehaif, 139 S. Ct. at 2200. Accordingly, Johnson
cannot show that the “fairness, integrity, or public reputation”
of this court's proceedings would be compromised if his
conviction stood.
[2] Johnson separately contends that his guilty plea is void
because the district court did not advise him on the
Rehaif
element during his plea colloquy. Johnson argues that he
satisfies the four prongs of plain error, and then argues in
his reply brief that, in the alternative, the error is structural
and thus requires automatic reversal regardless of whether
he meets prongs three and four of the plain error test. While
Johnson is of course correct that the district court erred
in failing to instruct him on the knowledge-of-felon status
element during his plea colloquy, we hold that Johnson
waived his structural error argument and fails to satisfy the
fourth element of the plain error test.
The Supreme Court has held that a plea is “constitutionally
invalid” where “neither [the defendant], nor his counsel, nor
the court correctly understood the essential elements of the

140 L.Ed.2d 828 (1998). When Johnson pled guilty, it was
not understood that knowledge of his prohibited firearm
status was an essential element of the offense with which
he was charged. See
Rehaif, 139 S. Ct. at 2200. Because
a defendant has the right to be informed of the charges
against him in order for his plea to be knowing and voluntary,
United States v. Pena, 314 F.3d 1152, 1156–57 (9th Cir.
2003), and because the district court here failed to instruct
Rehaif element during his plea colloquy,
Johnson on the
the court erred and that error is plain.
We have previously held that “failure to satisfy a core concern
of Rule 11 ...affect[s a defendant's] substantial rights.”
Id.
at 1157. This occurs, for example, when the district court fails
to explain the nature of the charges against a defendant when
he is accepting a plea.

*668 United States v. Longoria,

113 F.3d 975, 977 (9th Cir. 1997); see also United States v.
Minore, 292 F.3d 1109, 1119–20 (9th Cir. 2002) (concluding
that the defendant's substantial rights were affected by the
district court's failure to inform him that he had a right to
make the government prove drug quantity to a jury beyond
a reasonable doubt). Since a plea cannot be knowing and
voluntary where the district court does not properly instruct a
defendant on the essential elements of the crime,
Bousley,
523 U.S. at 618–19, 118 S.Ct. 1604, and because Rule 11(c)’s
primary purpose “is to ensure that guilty pleas are knowing
and voluntary,” United States v. Portillo-Cano, 192 F.3d 1246,
1250 (9th Cir. 1999) (internal quotation marks and citation
omitted), Johnson's substantial rights were affected by the
district court's failure to instruct on the

Rehaif element.

Nevertheless, Johnson is not entitled to relief because he
does not show how the error affects “the fairness, integrity,
or public reputation of judicial proceedings.”
Cotton, 535
U.S. at 631–32, 122 S.Ct. 1781 (citation omitted). As to prong
four of plain error, Johnson merely reiterates that failing to
prove an element is fatal to a conviction and thus violated his
due process rights. This contention, however, goes to whether
there was an error and whether his substantial rights were
affected. It does not properly address prong four of plain
error. Johnson does not show how the fairness, integrity, or
public reputation of judicial proceedings would be adversely
affected by affirming his conviction.

crime with which [the defendant] was charged.”
Bousley
v. United States, 523 U.S. 614, 618–19, 118 S.Ct. 1604,

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3a

3

United States v. Johnson, 833 Fed.Appx. 665 (2020)

[3] Relying on out-of-circuit precedent, see United States
v. Gary, 954 F.3d 194 (4th Cir. 2020), Johnson argues for
the first time in his supplemental reply brief that the district
court's failure to instruct him on the
Rehaif element
constitutes “structural error.” Because Johnson failed to
raise this argument—that the error is “structural”—in his
supplemental opening brief, this argument is waived, and we
United States v. Romm,
do not consider its merits. See
455 F.3d 990, 997 (9th Cir. 2006) (holding that the defendant
End of Document

waived a First Amendment challenge to the search of his
laptop because he raised it for the first time in his reply
brief, even though his opening brief had challenged the
constitutionality of the search under the Fourth Amendment).
Defendant's conviction is AFFIRMED.
All Citations
833 Fed.Appx. 665

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4a

4

Johnson v. United States, 140 S.Ct. 556 (Mem) (2019)
205 L.Ed.2d 353, 19 Cal. Daily Op. Serv. 11,040

Appendix B

140 S.Ct. 556
Supreme Court of the United States.
Christopher JOHNSON, Petitioner
v.
UNITED STATES.
No. 19-6033
|
November 25, 2019
Case below,

920 F.3d 628.

End of Document

Opinion
On petition for writ of certiorari to the United States Court
of Appeals for the Ninth Circuit. Motion of petitioner for
leave to proceed in forma pauperis and petition for writ of
certiorari granted. Judgment vacated, and case remanded to
the United States Court of Appeals for the Ninth Circuit for
further consideration in light of
Rehaif v. United States,
588 U.S. ––––, 139 S.Ct. 2191, 204 L.Ed.2d 594 (2019).
All Citations
140 S.Ct. 556 (Mem), 205 L.Ed.2d 353, 19 Cal. Daily Op.
Serv. 11,040
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

5a

1

Case: 18-10016, 06/25/2019, ID: 11343496, DktEntry: 42, Page 1 of 1

Appendix C
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
JUN 25 2019
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.

No.

18-10016

D.C. No.
2:17-cr-00057-JCM-CWH-1
District of Nevada,
Las Vegas

CHRISTOPHER JOHNSON,
ORDER
Defendant-Appellant.
Before: M. SMITH, NGUYEN, and BENNETT, Circuit Judges.
Defendant-Appellant has filed a petition for panel rehearing and a petition
for rehearing en banc. [Dkt. 38] The panel has voted to deny the petition for panel
rehearing and the petition for rehearing en banc. The full court has been advised of
the petition for rehearing en banc and no judge of the court has requested a vote on
en banc rehearing. See Fed. R. App. P. 35(f).
The petition for panel rehearing and petition for rehearing en banc is
DENIED.

6a

United States v. Johnson, 920 F.3d 628 (2019)
19 Cal. Daily Op. Serv. 3243, 2019 Daily Journal D.A.R. 2977

Appendix D
920 F.3d 628
United States Court of Appeals, Ninth Circuit.
UNITED STATES of America, Plaintiff-Appellee,
v.
Christopher JOHNSON, Defendant-Appellant.
No. 18-10016
|
Argued and Submitted December
21, 2018 San Francisco, California
|
Filed April 9, 2019

West Headnotes (14)
[1]

Criminal Law

Review De Novo

The Court of Appeals reviews de novo a district
court's determination that a prior conviction
qualifies as a crime of violence for purposes
of sentence enhancement under the Sentencing
Guidelines.

[2]

Criminal Law

U.S.S.G. § 4B1.2(a).

Sentencing and Punishment

Sentencing and Punishment
effect of report

Synopsis
Background: Defendant entered a guilty plea in the United
States District Court for the District of Nevada, No. 2:17cr-00057-JCM-CWH-1, James C. Mahan, J., to being a felon
in possession of a firearm, and defendant's base offense
level under Sentencing Guidelines was enhanced based on
prior California conviction for assault by non-firearm deadly
weapon, a wobbler offense that could be punished as a felony
or a misdemeanor. Defendant appealed.

Use and

In light of sentencing court's authority to
accept any undisputed portion of presentence
report (PSR) as a finding of fact, defendant's
concessions in district court foreclosed his
appellate argument that, by operation of
California law, his prior California conviction for
assault by non-firearm deadly weapon, a wobbler
offense which under California law could be
punished as a felony or as a misdemeanor, was
a misdemeanor, so that the prior conviction
was not a felony crime of violence that would
support enhancement of offense lever under
Sentencing Guidelines, at sentencing for being
a felon in possession of a firearm; PSR clearly
characterized prior conviction as a felony,
defendant did not challenge that description and
instead his counsel affirmatively represented to
district court that defendant had two prior felony
convictions, including the conviction for assault
by non-firearm deadly weapon, and defendant
and his attorney confirmed in open court the

Holdings: The Court of Appeals, Bennett, Circuit Judge, held
that:
[1] defendant's concessions in district court foreclosed his
appellate argument that his prior California conviction was
punished as a misdemeanor;
[2] defendant did not establish that the California court had
exercised its discretion to impose a misdemeanor sentence;
and
[3] under the categorical approach, defendant's prior
conviction was for a crime of violence.

factual accuracy of PSR.

18 U.S.C.A. §§

922(g)(1),
924(a)(2); Cal. Penal Code §§
17(b)(1), 245(a)(1); Fed. R. Crim. P. 32(i)(3)

Affirmed.

(A);
U.S.S.G. §§ 2K2.1(a)(4)(A) & cmt. n.1,
4B1.2(a).

Procedural Posture(s): Appellate Review; Sentencing or
Penalty Phase Motion or Objection.

1 Cases that cite this headnote
[3]

Criminal Law

Felonies and misdemeanors

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

7a

1

United States v. Johnson, 920 F.3d 628 (2019)
19 Cal. Daily Op. Serv. 3243, 2019 Daily Journal D.A.R. 2977

Sentencing Guidelines, at sentencing for being a

Under California law, a “wobbler offense” is a
statutory crime that may be punished either as a
felony or as a misdemeanor.

[4]

Criminal Law

felon in possession of a firearm.
§§ 922(g)(1),

[7]

Criminal Law

Felonies and misdemeanors

In determining whether a prior conviction in
California for a wobbler offense, i.e., a statutory
crime that may be punished either as a felony
or as a misdemeanor, is a felony conviction
that would support enhancement of offense lever
under federal Sentencing Guidelines, a federal
court ignores the maximum sentence allowed by
statute and instead adopts the designation that
California gives to the offense by operation of
law. Cal. Penal Code § 17(b)(1, 3);
U.S.S.G.
§§ 2K2.1(a)(4)(A) & cmt. n.1, 4B1.2(a).
1 Cases that cite this headnote
[6]

Sentencing and Punishment
Offense or
adjudication in other jurisdiction
California court's question before commencing
sentencing proceeding for defendant's California
conviction for assault by non-firearm deadly
weapon, a wobbler offense that under California
law could be punished as a felony or as a
misdemeanor, which question asked whether any
legal cause existed for why judgment should not
be pronounced, merely suggested that California
court was about to enter a judgment and
did not establish that California court actually
imposed a judgment and that any such judgment
converted defendant's conviction from a felony
to a misdemeanor by operation of California
law, so that the conviction did not qualify as
a prior felony crime of violence that would
support enhancement of offense level under

Sentencing and Punishment
Offense or
adjudication in other jurisdiction
Defendant did not establish that California
court had exercised its discretion to impose
misdemeanor sentence for his California
conviction for assault by non-firearm deadly
weapon, so that the conviction for the wobbler
offense, which under California law could be
punished as a felony or as a misdemeanor,
did not qualify as a prior felony crime of
violence that would support enhancement of
offense level under Sentencing Guidelines, at
sentencing for being a felon in possession of
a firearm; document titled “Felony Plea Form”
suggested that defendant had pleaded guilty to
a felony, that form showed defendant's initials
next to statement that “[a]s a convicted felon,
I will not be able to own or possess any
firearm,” sentencing memorandum had “Felony”
rather than “Misdemeanor” box checked, and
requirements under California law for treating
a wobbler offense as a misdemeanor were not
met because the grant of probation to defendant
for 36 months was subject to condition that

1 Cases that cite this headnote
[5]

924(a)(2); Cal. Penal Code §§

17(b)(1), 245(a)(1);
U.S.S.G. §§ 2K2.1(a)(4)
(A) & cmt. n.1, 4B1.2(a).

Felonies and misdemeanors

Under California law, a wobbler offense, i.e., a
statutory crime that may be punished either as
a felony or as a misdemeanor, is presumptively
a felony and remains a felony except when the
discretion is actually exercised to make the crime
a misdemeanor. Cal. Penal Code § 17(b).

18 U.S.C.A.

defendant serve the first six months in jail.
U.S.C.A. §§ 922(g)(1),

18

924(a)(2); Cal. Penal

Code §§ 17(b)(1), 245(a)(1);
U.S.S.G. §§
2K2.1(a)(4)(A) & cmt. n.1, 4B1.2(a).

[8]

Criminal Law
of Judgment

Requisites and Sufficiency

Sentencing and Punishment
and effect

Operation

An order granting probation is not a judgment
under California law.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

8a

2

United States v. Johnson, 920 F.3d 628 (2019)
19 Cal. Daily Op. Serv. 3243, 2019 Daily Journal D.A.R. 2977

[9]

Criminal Law

only if a conviction for the state offense
necessarily involved facts equating to the generic
federal offense, and to satisfy the categorical
approach, a state offense must meet two
conditions: it must necessarily proscribe conduct
that is an offense under the federal analog, and
the federal analog must necessarily prescribe

Felonies and misdemeanors

Under California law, if a court, in sentencing
a defendant for a wobbler offense, i.e., a
statutory crime that may be punished either as
a felony or as a misdemeanor, grants probation
subject to serving the first six months in jail,
the requirements for treating the offense as a
misdemeanor rather than a felony are not met.
Cal. Penal Code § 17(b).
1 Cases that cite this headnote
[10]

felony punishment for that conduct.
§ 4B1.2(a).

[13]

Sentencing and Punishment
Offense or
adjudication in other jurisdiction

[11]

U.S.S.G. § 4B1.2(a).

Sentencing and Punishment
Violent or
Nonviolent Character of Offense
The fact that state law permits conviction as
either a misdemeanor or as a felony does
not preclude a federal court from applying a
categorical analysis when determining whether
a defendant's prior state conviction was for a
felony, for purposes of enhancement of offense
level under Sentencing Guidelines, based on
prior felony conviction for crime of violence.
U.S.S.G. § 4B1.2(a).
1 Cases that cite this headnote

[12]

Sentencing and Punishment
Violent or
Nonviolent Character of Offense
A state offense is a categorical match with a
generic federal offense, so that a state conviction
for the offense is categorically a crime of
violence, for purposes of enhancement of offense
level under federal Sentencing Guidelines based
on prior felony conviction for crime of violence,

Sentencing and Punishment
Offense or
adjudication in other jurisdiction
Under the categorical approach, defendant's prior
California conviction for assault by non-firearm
deadly weapon, a wobbler offense that could
be punished as a felony or as a misdemeanor,
qualified as a felony offense, for purposes
of enhancement of base offense level under
Sentencing Guidelines based on prior conviction
for felony crime of violence, at sentencing for
being a felon in possession of a firearm; the
California offense was punishable as a felony,
and under California law a wobbler offense was
presumptively a felony and remained a felony
except when discretion was actually exercised to

Under the categorical approach for determining
whether a prior state conviction qualifies as a
crime of violence, as predicate for enhancement
of offense level under federal Sentencing
Guidelines, the court assesses whether the full
range of conduct covered by the state statute
falls within the meaning of the term “crime of
violence.”

U.S.S.G.

make the crime a misdemeanor.
§§ 922(g)(1),

18 U.S.C.A.

924(a)(2); Cal. Penal Code §§

17(b)(1), 245(a)(1);
U.S.S.G. §§ 2K2.1(a)(4)
(A) & cmt. n.1, 4B1.2(a).
2 Cases that cite this headnote
[14]

Criminal Law

Felonies and misdemeanors

Under California law, a wobbler offense, which
can be punished as a felony or as a misdemeanor,
remains a felony unless and until the trial
court imposes a misdemeanor sentence, and the
classification of the offense as a misdemeanor
does not operate retroactively to the time of
the crime's commission, the charge, or the
adjudication of guilt. Cal. Penal Code § 17(b).

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

9a

3

United States v. Johnson, 920 F.3d 628 (2019)
19 Cal. Daily Op. Serv. 3243, 2019 Daily Journal D.A.R. 2977

Attorneys and Law Firms
*631 Amy B. Cleary (argued) and Cullen O. Macbeth,
Assistant Federal Public Defenders; Rene L. Valladares,
Federal Public Defender; Office of the Federal Public
Defender, Las Vegas, Nevada; for Defendant-Appellant.
Elizabeth O. White (argued), Appellate Chief; Dayle Elieson,
United States Attorney; United States Attorney's Office,
Reno, Nevada; for Plaintiff-Appellee.
Appeal from the United States District Court for the District
of Nevada, James C. Mahan, District Judge, Presiding, D.C.
No. 2Presiding, D.C. No. 2:17-cr-00057-JCM-CWH-1.
Before: Milan D. Smith, Jr., Jacqueline H. Nguyen, and Mark
J. Bennett, Circuit Judges.

OPINION
BENNETT, Circuit Judge:
Christopher Johnson pleaded guilty to one count of being a
felon in possession of a firearm. The district court assigned
Johnson a base offense level of 20 based on a determination
that Johnson had previously been convicted of a “crime
§ 2K2.1(a)(4)(A)
of violence” as that term is used in
of the U.S. Sentencing Guidelines Manual (“USSG” or
the “Guidelines”), and sentenced Johnson to 30 months’
imprisonment.
On appeal, Johnson argues that the district court erred by
applying a crime-of-violence enhancement to his offense
level. We first consider whether Johnson's concessions in
the district court foreclose his newly minted argument
that his underlying conviction for violation of California
Penal Code (“CPC”) § 245(a)(1) was not actually a felony
under California law. Reviewing de novo, we also examine
Johnson's CPC § 245(a)(1) conviction to determine whether
it truly was for a felony, and if so, whether, in light of
Moncrieffe v. Holder, 569 U.S. 184, 133 S.Ct. 1678,
185 L.Ed.2d 727 (2013), a felony conviction for violating
CPC § 245(a)(1) can be a predicate offense for a crime-ofviolence enhancement. Because the answer to all *632 three
questions is yes, we affirm Johnson's sentence.

I.
A grand jury in the District of Nevada indicted Johnson
for possession of a firearm after having been convicted
of a felony, in violation of

18 U.S.C. §§ 922(g)(1)

924(a)(2). Johnson pleaded guilty without a plea
and
agreement.
The U.S. Probation Office assigned Johnson a base offense
level of 20 pursuant to USSG § 2K2.1(a)(4)(A), because of
Johnson's prior conviction for a felony crime of violence. The
predicate crime was Johnson's 2014 California conviction for
assault with a deadly weapon (not a firearm), in violation of
CPC § 245(a)(1), for which Johnson served six months in
county jail. Probation reduced the offense level by three for
acceptance of responsibility, resulting in a total offense level
of seventeen. Johnson's advisory Guidelines range was thirtyto-thirty-seven months.
Johnson objected to Probation's classification of his assaultwith-a-deadly-weapon conviction as a crime of violence on
the basis that the state offense lacked the mens rea to qualify as
a crime of violence under the categorical approach. Johnson
did not, however, object to Probation's classification of his
CPC § 245(a)(1) conviction as a felony, or otherwise assert
that the conviction was not for an offense punishable by
more than one year in prison. Rather, he conceded in his
sentencing memorandum that “[h]e has two prior felony
convictions .... [He] received his second felony conviction
for Assault with a Deadly Weapon-Not a Firearm, for which
he received a suspended six-month jail sentence and three
years of probation.” The district judge asked whether Johnson
or his attorney found any “errors or discrepancies” in the
presentence investigation report (“PSR”); both answered that
they had not.
The district court held that a conviction under CPC § 245(a)
(1) is a crime of violence, and overruled Johnson's objections
to the PSR. The court sentenced Johnson to thirty months’
imprisonment, the low end of his advisory Guidelines range.
Johnson timely appealed.

II.
[1] “We review ‘de novo a district court's determination that
a prior conviction qualifies as a “crime of violence” under the

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

10a

4

United States v. Johnson, 920 F.3d 628 (2019)
19 Cal. Daily Op. Serv. 3243, 2019 Daily Journal D.A.R. 2977

Guidelines ....”

United States v. Saavedra-Velazquez, 578

F.3d 1103, 1106 (9th Cir. 2009) (quoting
United States v.
Rodriguez-Guzman, 506 F.3d 738, 740–41 (9th Cir. 2007)).
The parties dispute the proper standard of review for the subissue whether Johnson's underlying California conviction for
assault with a deadly weapon was punishable by more than
one year in prison. Johnson argues that we should review
this issue de novo because he has merely advanced a new
argument in support of his preserved claim that the crime-ofviolence enhancement was improper. The government urges
us to review for plain error only because Johnson failed
to make this argument in the district court and because
our consideration of this argument would invite improper
appellate fact-finding.
As we explain below, this dispute is immaterial to our analysis
because Johnson's argument fails under plain error and de
novo review. We believe, however, that resolution of this
sub-issue is actually governed by Federal Rules of Criminal
Procedure Rule 32(i)(3)(A), which permits a district court to
find as facts, uncontroverted factual statements in the PSR.

*633 III.
The Guidelines assign a base offense level of twenty for
the offense of unlawful firearms possession by a felon if
“the defendant committed any part of the instant offense
subsequent to sustaining one felony conviction of either
a crime of violence or a controlled substance offense.”
USSG § 2K2.1(a)(4)(A). The Guidelines define “crime of
violence” as
any offense under federal or state law, punishable by
imprisonment for a term exceeding one year, that—
(1) has an element the use, attempted use, or threatened
use of physical force against the person of another, or
(2) is murder, voluntary manslaughter, kidnapping,
aggravated assault, a forcible sex offense, robbery,
arson, extortion, or the use or unlawful possession
26 U.S.C. § 5845(a) or
of a firearm described in
explosive material as defined in 18 U.S.C. § 841(c).

The two issues presented in this appeal are whether Johnson's
assault-with-a-deadly-weapon conviction was for an offense
“punishable by imprisonment for a term exceeding one
year,” and if so, whether CPC § 245(a)(1) can ever, under
the categorical approach, be a crime of violence after
Moncrieffe. 1
1

Johnson also argues that CPC § 245(a) lacks the
appropriate mens rea requirement to be considered
a crime of violence. As he acknowledges, though,
a long line of our cases—most recently
United
States v. Vasquez-Gonzalez, 901 F.3d 1060, 1066–
68 (9th Cir. 2018)—squarely forecloses much of
this argument, leaving only Johnson's contention
that Moncrieffe abrogated our treatment of CPC
§ 245(a) in the crime-of-violence context.

A.
[2] Johnson first argues that, by operation of California law,
his conviction was for a misdemeanor, not a felony. Because
under California law, a misdemeanor is not punishable by
a prison term exceeding one year, Johnson asserts that the
crime-of-violence enhancement should not apply. Ultimately,
Johnson's concessions in the district court foreclose this
argument.
The relevant Commentary to the Guidelines defines “felony
conviction” as “a prior adult federal or state conviction for
an offense punishable by death or imprisonment for a term
exceeding one year, regardless of whether such offense is
specifically designated as a felony and regardless of the
actual sentence imposed.” 2
USSG § 2K2.1 cmt. n.1. The
underlying statute of conviction here provides:

Any person who commits an assault
upon the person of another with a
deadly weapon or instrument other
than a firearm shall be punished by
imprisonment in the state prison for
two, three, or four years, or in a county
jail for not exceeding one year, or by a
fine not exceeding ten thousand dollars

USSG § 4B1.2(a).

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

11a

5

United States v. Johnson, 920 F.3d 628 (2019)
19 Cal. Daily Op. Serv. 3243, 2019 Daily Journal D.A.R. 2977

($ 10,000), or by both the fine and
imprisonment.

See
Bridgeforth, 441 F.3d at 872;
United
States v. Robinson, 967 F.2d 287, 293 (9th Cir.
1992), recognized as overruled on other grounds

CPC § 245(a)(1).
2

The

definition

ignore the maximum sentence allowed by statute
and instead adopt the designation that California
gives to the offense by operation of CPC § 17(b).

of

both

“felony

conviction” ( USSG § 2K2.1 cmt. n.1.) and
“crime of violence,” (id. § 4B1.2 (a)) refer to
“imprisonment for a term exceeding one year.”

Ortega-Mendez v. Gonzales, 450 F.3d 1010,
by
1018–20 (9th Cir. 2006).

Johnson argues that his sentence of six months in the county
jail conclusively establishes that he received a “punishment
[3] [4] [5] The variety of punishments that a defendant other than imprisonment in the state prison,” thus converting
his CPC § 245(a)(1) conviction into a “misdemeanor for all
can receive for being convicted under CPC § 245(a)(1)
purposes” under CPC § 17(b)(1). In addition, Johnson asks
demonstrate that the statute is a wobbler. “In the parlance
us to take judicial notice of several documents related to
of California law enforcement, a violation of the statute is
sentencing in his underlying CPC § 245(a)(1) conviction that,
a ‘wobbler’ that may be punished either as a felony or as a
in Johnson's view, establish that his sentence converted his
misdemeanor.” United States v. Diaz-Argueta, 564 F.3d 1047,
wobbler conviction into a misdemeanor.
1049 (9th Cir. 2009). “Under California law, a ‘wobbler’
is presumptively *634 a felony and ‘remains a felony
We reject Johnson's belated attempts to characterize his
except when the discretion is actually exercised’ to make
underlying California conviction as a misdemeanor. Pursuant
the crime a misdemeanor.”
Ewing v. California, 538 U.S.
to Rule 32(i)(3)(A), the district court “may accept any
11, 16, 123 S.Ct. 1179, 155 L.Ed.2d 108 (2003) (quoting
undisputed portion of the presentence report as a finding of
People v. Williams, 27 Cal.2d 220, 163 P.2d 692, 696
fact.” The PSR clearly characterized Johnson's assault-with(1945)). “To determine whether a conviction for a wobbler is
a-deadly-weapon conviction as a felony. As discussed above,
an offense punishable by a term of imprisonment exceeding
not only did Johnson fail to challenge that description, his
one year under ... the Guidelines, the sentencing court must
counsel affirmatively represented to the court that he had
look to state law: Did the California court's treatment of the
two prior felony convictions, including the CPC § 245(a)
offense convert it into a ‘misdemeanor for all purposes’ under
(1) conviction at issue here. Additionally, Johnson and his
attorney confirmed, in open court, the factual accuracy of the
[CPC] section 17(b)?”
United States v. Bridgeforth,
PSR. Because Johnson did not dispute that he had a felony
441 F.3d 864, 872 (9th Cir. 2006). 3 If not, the offense
conviction, the district court was entitled, under Rule 32, to
remains a felony. A conviction becomes a “misdemeanor for
accept as a fact the PSR's characterization of his offense of
all purposes” when certain conditions are met, including, as
conviction. Thus, pursuant to Rule 32, Johnson's concessions
relevant here: “[a]fter a judgment imposing a punishment
in the district court foreclose his argument that his conviction
other than imprisonment in the state prison or” “[w]hen the
was not a felony.
court grants probation to a defendant” without imposition of
a sentence “and at the time of granting probation ... declares
Johnson nonetheless argues that the PSR's description of his
the offense to be a misdemeanor.” CPC § 17(b)(1) & (3).
CPC § 245(a) conviction is at least ambiguous because it
also contained the notation that he was “sentenced to six
3
The Guidelines instruct us: “ ‘Felony conviction’
months in jail,” which, according to Johnson, means that he
means a prior adult federal or state conviction for
received a qualifying misdemeanor sentence under CPC §
an offense punishable by death or imprisonment
17(b)(1). We deem that notation irrelevant because Johnson
for a term exceeding one year, regardless of
conceded that the PSR accurately described the conviction
whether such offense is specifically designated
as a felony. But even were this not so, the mere fact that
as a felony and regardless of the actual sentence
Johnson received a *635 six-month jail sentence does not
necessarily mean that his conviction was for a misdemeanor.
imposed.”
USSG § 2K2.1 cmt. n.1. Despite
The PSR does not indicate that the California sentencing court
this clear admonition, our binding circuit precedent
entered a judgment imposing a six-month sentence. Indeed,
requires us, where wobblers are concerned, to
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

12a

6

United States v. Johnson, 920 F.3d 628 (2019)
19 Cal. Daily Op. Serv. 3243, 2019 Daily Journal D.A.R. 2977

Johnson's six-month term could have been a condition of
probation (which seems very likely, for the reasons discussed
below), in which case, the “six months in jail” notation would
not contradict the PSR's characterization of the offense as a
felony.
United States v.
We addressed a similar situation in
Grajeda, 581 F.3d 1186 (9th Cir. 2009), and our resolution
Grajeda is instructive here. Grajeda argued
of the issue in
on appeal that the district court erred by failing to resolve a
factual dispute surrounding the prior convictions described
in the PSR.
Grajeda, 581 F.3d at 1188. We reviewed
the objections that Grajeda made in the district court and
concluded that, contrary to his assertions on appeal, “his
objections raised only legal arguments, not factual ones.
Grajeda did not controvert the accuracy of the PSR or argue
that he had not been convicted of the listed crimes.”
Id.
at 1189. Because Grajeda did not challenge the factual basis
for his sentencing enhancement, Rule 32 permitted the district
court to accept the PSR's factual findings regarding his
underlying convictions.

Id. at 1188.

So too here. The record shows that Johnson did not
challenge the factual accuracy of the PSR's description of his
CPC § 245(a)(1) conviction as a felony. 4 Rather, like the
defendant in
Grajeda, Johnson's objections were purely
legal: he argued that CPC § 245(a)(1) is overbroad under
the categorical approach and thus cannot be considered a
crime of violence. Because Johnson failed to controvert the
PSR's felony classification of his § 245(a)(1) conviction, the
district court was entitled to accept that aspect of the PSR as a
finding of fact under Rule 32. See United States v. RomeroRendon, 220 F.3d 1159, 1163 n.4 (9th Cir. 2000) (“The
government bears the burden of proving the facts underlying
the enhancement. Where, as here, it submits the PSR as proof,
and the defendant submits no contrary evidence, the only
evidence before the sentencing judge is the uncontroverted
PSR. In these cases, a judge may rely on it to establish the
factual basis for the enhancement.”).
4

Indeed, he did the opposite and expressly
confirmed that the PSR was factually accurate.

We also hold alternatively that Johnson has failed to establish
that he received a misdemeanor sentence for his § 245(a)(1)
conviction.

[6] Johnson asserts that the state court record supports
his claim because the sentencing court asked, before
commencing the proceeding, whether there existed “any legal
cause why judgment should not be pronounced.” While we
agree that the court's statement suggested it was about to
enter a judgment, we do not agree with Johnson that the
court actually did impose a judgment (none appears in the
documents that Johnson submitted) or that even if it did
so, any such judgment would convert his conviction into a
misdemeanor by operation of CPC § 17(b).
[7] Rather, the documents that Johnson submitted contain
numerous indications that Johnson received a sentence that
did not convert his conviction to a misdemeanor. First the
document titled “Felony Plea Form,” suggests that Johnson
pleaded guilty to a felony. Second, that Form shows Johnson's
initials next to this statement: “As a convicted felon, I will
not *636 be able to own or possess any firearm.” Third, the
sentencing memorandum filed in the case, and signed by the
defendant, the defense attorney, and the judicial officer, has
two boxes at the top: “Felony” and “Misdemeanor.” “Felony”
is checked.
Finally, and perhaps most importantly, the documents make
clear that Johnson received, in addition to a term in county
jail, a term of 36 months’ formal probation. The documents
also show that Johnson's 180-day term in county jail was
not a standalone sentence, but rather was a “legal restriction
apply[ing] to a decision to grant probation in this case.”
[8]

[9] “[A]n order granting probation is not a judgment.”

United States v. Robinson, 967 F.2d 287, 293 (9th
Cir. 1992) (quoting People v. Smith, 195 Cal.App.2d 735,
16 Cal.Rptr. 12, 13 (1961)), abrogated on other grounds
by
Ortega-Mendez v. Gonzales, 450 F.3d 1010, 1018–
20 (9th Cir. 2006). Where, as here, a California court
grants probation “subject to serving the first [six] months
in jail,” the requirements of CPC § 17(b) are not met.
Id. at 292. Johnson's offense therefore never “wobbled”
to a misdemeanor, and the district court did not err in
concluding that Johnson was previously convicted of an
offense punishable by a term exceeding one year in prison.
Johnson argues that our recent decision in
United States
v. Valencia-Mendoza, 912 F.3d 1215 (9th Cir. 2019), requires
us to hold that his conviction was for a misdemeanor.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

13a

7

United States v. Johnson, 920 F.3d 628 (2019)
19 Cal. Daily Op. Serv. 3243, 2019 Daily Journal D.A.R. 2977

In
Velencia-Mendoza, we held that when we consider
whether a predicate offense (for purposes of a sentencing
enhancement) was “punishable by imprisonment for a term
exceeding one year,” we must consider, in addition to the
relevant statutory maximum sentence for the offense, any
mandatory sentencing factors that would limit the actual
maximum sentence that the defendant was eligible to receive.
Id. at 1224. Johnson argues that if we follow

Valencia-

Mendoza’s guidance and take a “realistic look” ( id. at
1223) at Johnson's CPC § 245(a)(1) conviction, we will arrive
at the conclusion that he was convicted of a misdemeanor. We
disagree.
In this case, there are no mandatory sentencing factors that
would potentially affect whether Johnson's CPC § 245(a)
(1) conviction was punishable by a prison term exceeding
one year. Rather, we look solely to whether the actual
sentence the court imposed converted Johnson's conviction to
a “misdemeanor for all purposes” under CPC § 17(b)—if not,
it remains punishable as a felony under

USSG § 2K2.1

cmt. n.1. See
Bridgeforth, 441 F.3d at 872. And as we
discussed above, applying CPC § 17 to Johnson's conviction,
we readily conclude that the state sentencing court did not
convert Johnson's conviction to a misdemeanor.
ValenciaMendoza does not alter that analysis or our conclusion.

B.
We turn next to Johnson's argument that
Moncrieffe has
abrogated our treatment of wobbler offenses in the context
of a crime-of-violence sentencing enhancement. We start by
briefly describing the framework we use when evaluating
whether a prior conviction is for a crime of violence.
[10] We employ the categorical approach described in
Taylor v. United States, 495 U.S. 575, 110 S.Ct. 2143,
109 L.Ed.2d 607 (1990), to determine whether Johnson's
CPC § 245(a)(1) conviction is a “crime of violence.” See
Fernandez-Ruiz v. Gonzales, 466 F.3d 1121, 1125 (9th
Cir. 2006) (en banc). We consider “whether the offense
defined by section 245(a)(1) is categorically a crime of
violence by assessing whether the full range of conduct
covered by the statute falls within the meaning of *637
that term.”

Grajeda, 581 F.3d at 1189 (internal quotation

marks and alterations omitted) (quoting United States v.
Juvenile Female, 566 F.3d 943, 946 (9th Cir. 2009)); see also
Moncrieffe, 569 U.S. at 190, 133 S.Ct. 1678 (“[W]e look
‘not to the facts of the particular prior case,’ but instead to
whether the ‘state statute defining the crime of conviction’
categorically fits within the ‘generic’ federal definition of
Gonzales
a corresponding aggravated felony.” (quoting
v. Duenas-Alvarez, 549 U.S. 183, 186, 127 S.Ct. 815, 166
L.Ed.2d 683 (2007))).
Moncrieffe, the Court held that a Georgia conviction
In
for possession with intent to distribute marijuana was not
categorically an aggravated felony for purposes of the
Immigration and Nationality Act (“INA”), because the fact
of the conviction itself failed to establish that the offense of
conviction was comparable to an offense listed in the INA (in
that case, the INA referenced the Controlled Substances Act
(“CSA”)). Because the relevant Georgia law would sustain
a felony for transfer of only a small amount of marijuana
without remuneration, but the analogous CSA provision
would treat the same conduct as a misdemeanor, the Georgia
violation was not “ ‘necessarily’ [for] conduct punishable as
a felony under the CSA,” and therefore not categorically an
aggravated felony.
5

569 U.S. at 192, 133 S.Ct. 1678. 5

The statute at issue in
Moncrieffe is similar to
the Guidelines provision at issue here, insofar as
it “provides that a ‘felony’ is an offense for which
the ‘maximum term of imprisonment authorized’
is ‘more than one year.’ ”

Moncrieffe, 569 U.S.

at 188, 133 S.Ct. 1678 (quoting

18 U.S.C. §

3559(a)(5)). However,
§ 3559(a)(5) does not
contain language like that present in the relevant
Guideline Comment: “ ‘Felony conviction’ ”
means a prior adult federal or state conviction for
an offense punishable by death or imprisonment for
a term exceeding one year, regardless of whether
such offense is specifically designated as a felony
and regardless of the actual sentence imposed.”
USSG § 2K2.1 cmt. n.1. (emphasis added).
[11] Johnson argues that
Moncrieffe abrogates our prior
holdings that require us to analyze a wobbler conviction
under the categorical approach. “The fact that the law
permits conviction as either a misdemeanor or felony

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

14a

8

United States v. Johnson, 920 F.3d 628 (2019)
19 Cal. Daily Op. Serv. 3243, 2019 Daily Journal D.A.R. 2977

does not preclude a categorical analysis.” United States v.
Salazar-Mojica, 634 F.3d 1070, 1072 n.2 (9th Cir. 2011).
Under Moncrieffe, Johnson argues, “a statute categorically
qualifies as a crime of violence only if it is punishable by
more than a year in prison in every case.” Because CPC §
245(a)(1) can be punished as either a felony or a misdemeanor
(depending on whether it wobbles), Johnson claims that it is
not punishable by more than one year in prison in every case,
and therefore is not categorically a crime of violence.
[12] We reject this argument because it misinterprets
the scope of
Moncrieffe.
Moncrieffe reiterated the
proposition that “a state offense is a categorical match
with a generic federal offense only if a conviction of the
state offense ‘ “necessarily involved facts equating to the
generic federal offense.’ ”

569 U.S. at 190, 133 S.Ct.

1678 (internal alterations omitted) (quoting
Shepard v.
United States, 544 U.S. 13, 24, 125 S.Ct. 1254, 161 L.Ed.2d
205 (2005) (plurality opinion)). “[T]o satisfy the categorical
approach, a state ... offense must meet two conditions: It must
‘necessarily’ proscribe conduct that is an offense under the
[federal analog], and the [federal analog] must ‘necessarily’
prescribe felony punishment for that conduct.”

Id. at 192,

133 S.Ct. 1678; see also
id. at 197–98, 133 S.Ct. 1678
(“[O]ur ‘more focused, categorical inquiry’ is whether the
record of conviction of the predicate offense necessarily
establishes conduct that the CSA, on its *638 own terms,
makes punishable as a felony.” (emphasis added) (quoting
Carachuri-Rosendo v. Holder, 560 U.S. 563, 580, 130
S.Ct. 2577, 177 L.Ed.2d 68 (2010))).
[13] In this case, a conviction under § 245(a)(1) establishes
conduct that California law makes punishable as a felony.
Indeed, “under California law, a ‘wobbler’ is presumptively
a felony and ‘remains a felony except when the discretion
is actually exercised’ to make the crime a misdemeanor.”
Ewing, 538 U.S. at 16, 123 S.Ct. 1179 (internal quotation

—a state felony conviction for conduct potentially subject
to both felony and misdemeanor punishment under the CSA
cannot be a predicate offense under the categorical approach
—is inapplicable here. Cf. People v. Finley, 219 Cal.App.2d
330, 33 Cal.Rptr. 31, 37 (1963) (holding that a wobbler assault
is always a felony for purposes of felony-murder conviction
where the defendant is not charged or tried separately for
the assault, because “there is ... no occasion or opportunity
to impose a sentence or to thus convert the felony into a
misdemeanor. For the purpose of the instant prosecution the
infliction of such an assault is felony and can be nothing
less”).
[14] Johnson argues, though, that a wobbler conviction
is not necessarily punishable as a felony because the
California legislature has given California sentencing courts
the discretion to determine whether the offense is a felony or
misdemeanor. Johnson's argument misapprehends the nature
of a wobbler under California law. As noted above, a wobbler
“remains a felony ... ‘unless and until the trial court imposes a
misdemeanor sentence.’ ”

Ewing, 538 U.S. at 28–29, 123

S.Ct. 1179 (quoting
In re Anderson, 69 Cal.2d 613, 73
Cal.Rptr. 21, 447 P.2d 117, 126 (1968)). Importantly, though,
this “classification of the offense as a misdemeanor [does] not
operate retroactively to the time of the crime's commission,
the charge, or the adjudication of guilt.”
People v. Park,
56 Cal.4th 782, 156 Cal.Rptr.3d 307, 299 P.3d 1263, 1268
n.6 (2013). A wobbler conviction is therefore punishable as a
felony, even if the court later exercises its discretion to reduce
the offense to a misdemeanor.
Moreover, this case does not implicate the concern, identified
by the Court in
Moncrieffe, that underlies the categorical
approach: the potential unfairness of relitigation of prior
offenses to determine whether the facts of the prior particular
offense constitute a crime of violence. Instead, to determine
whether a conviction under CPC § 245(a)(1) is punishable as
a felony, the court need look only at the defendant's conviction

Williams, 163 P.2d at 696); see

and sentence. See CPC § 17(b);
at 871.

also
People v. Superior Court (Alvarez), 14 Cal.4th 968,
60 Cal.Rptr.2d 93, 928 P.2d 1171, 1176 (1997) (observing
that California law “rests the decision whether to reduce a
wobbler solely ‘in the discretion of the court’ ”) (emphasis
added). The fact of a CPC § 245(a)(1) conviction establishes
that the defendant was convicted of an offense punishable by

IV.

marks omitted) (quoting

more than one year in prison. Thus,

Moncrieffe’s upshot

Bridgeforth, 441 F.3d

Because Johnson confirmed to the district court that the PSR
accurately described his CPC § 245(a)(1) as a felony, the
court was entitled to rely on that characterization, and we will

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

15a

9

United States v. Johnson, 920 F.3d 628 (2019)
19 Cal. Daily Op. Serv. 3243, 2019 Daily Journal D.A.R. 2977

not disturb it on appeal. We reach the same result reviewing
the classification of Johnson's state-court sentence de novo.
Moncrieffe does not alter our longstanding
Finally,
precedents holding that a felony conviction under CPC
§ 245(a)(1) is a crime of violence. We therefore reject
Johnson's challenges to the crime-of-violence enhancement
to his offense level.
End of Document

*639 The district court's judgment is AFFIRMED.
All Citations
920 F.3d 628, 19 Cal. Daily Op. Serv. 3243, 2019 Daily
Journal D.A.R. 2977

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

16a 10

